Proof of Service
I David Wasanyi declare that under penalty of perjury pursuant to 28 U S C ยง1746 that he
mailed a copy of the enclosed petition of writ of certiorari to the Solicitor General of United
States and the William J. Powell United States District Attorney for the Northern District of
West Virginia and mail them by United States Postal service on September 30th, 2020, at the
addresses bellow

Jeffrey Wall
Solicitor General of United States,
Room 5614
Department of Justice,
950 Pennsylvania Avenue
N.W Washington D.C 20530-0001
William J. Powell
United States District Attorney for the Northern District of West Virginia
United States Attorney's Office
1125 Chapline Street, suite 300
Wheeling, WV 26003
Phone 304-234-0100 Fax 304-234-0112
Respectfully

David M. Wasanyi, Pharm. D.,
Inmate# 3596876
PruntyTown Correction and Rehabilitation Center
2006 Trap Spring Road
Grafton, WV 26354

Page 15 of 15

